OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/RWANDA’S
DISTRIBUTION OF P.L. 480
TITLE II NONEMERGENCY
ASSISTANCE IN SUPPORT OF
ITS DIRECT FOOD AID
DISTRIBUTION PROGRAM
AUDIT REPORT NO. 4-696-08-003-P
April 30, 2008




Pretoria, South Africa
Office of Inspector General


April 30, 2008

MEMORANDUM

TO:                  USAID/Rwanda, Mission Director, Dennis Weller

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Rwanda’s Distribution of P.L. 480 Title II Nonemergency
                     Assistance in Support of Its Direct Food Aid Distribution Program
                     (Report No. 4-696-08-003-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments in their entirety as appendix II.

The report includes four recommendations to strengthen USAID/Rwanda’s management
of the P.L. 480 Title II nonemergency direct food aid distribution. In response to the draft
report, the mission concurred with these recommendations. Management decisions
have been reached for recommendation nos. 1, 2, and 3. The mission has provided
documentation demonstrating that recommendation no. 4 has been addressed;
therefore, this recommendation has final action upon the issuance of this report. Please
provide USAID’s Office of Audit, Performance, and Compliance Division (M/CFO/APC)
with the necessary documentation demonstrating that final action has been taken on
recommendation nos. 1, 2, and 3.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius St.
Groenkloof X5
Pretoria 0027, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

     Some Beneficiaries Are
     Outside Targeted Population ...................................................................................... 9

     Performance Management Plan Should
     Include Direct Food Aid............................................................................................. 10

     The Quality of Some Reported
     Data Is Questionable................................................................................................. 12

     Outstanding Claims Should Be Resolved ................................................................. 15

Evaluation of Management Comments ....................................................................... 17

Appendix I – Scope and Methodology ........................................................................ 19

Appendix II – Management Comments ....................................................................... 21
SUMMARY OF RESULTS
The Agricultural Trade Development and Assistance Act of 1954, also known as Public
Law 480 (P.L. 480), is the U.S. Government’s principal mechanism of implementing its
international food assistance initiatives. Under Title II of the P.L. 480 program—
managed by USAID—the U.S. Government donates agricultural commodities to support
emergency and nonemergency food assistance programs. USAID/Rwanda’s P.L. 480
direct food aid distribution program seeks to mitigate food insecurity by promoting
development projects that enhance household nutrition and increase agricultural
production through food for work, direct distribution to vulnerable populations, and direct
distribution to HIV/AIDS associations.        The Regional Inspector General/Pretoria
(RIG/Pretoria) conducted this audit to determine whether USAID/Rwanda’s P.L. 480 Title
II nonemergency assistance has been delivered to the intended beneficiaries and what
has been the impact. (See page 3–4.)

In fiscal years 2006 and 2007, USAID/Rwanda generally delivered its commodities to its
intended beneficiaries. Beneficiaries received food through feeding centers such as
orphanages and schools for the disabled. In addition, other beneficiaries—such as
certain farmers’ association members (those selected for food-for-work projects) 1 2 and
HIV/AIDS association members identified as most in need of food rations—have
received direct commodities (vegetable oil, bulgur wheat, and corn-soy blend). The
audit found that the cooperating sponsors had established strong internal control over
the storage of commodities. However, some feeding centers were also feeding people
who were not intended beneficiaries. As a result, the intended beneficiaries received
less of the USAID-provided rations than they would have received otherwise. These
feeding centers supplemented USAID commodities with food from other sources to
lessen the detrimental impact on the intended beneficiaries. (See page 5.)

The food aid program has improved health and increased agricultural productivity, which
has improved overall food security for the populations targeted for this assistance.
People affected by HIV/AIDS described how the receipt of USAID commodities helped
improve their health. Some individuals stated that their health deteriorated when they
ceased receiving the commodities, which resulted in their having to resume receiving
food assistance. Vulnerable populations are also being fed at “safety net centers” that
feed vulnerable populations (e.g., orphans, street children, disabled people, and the
elderly) with USAID-supplied commodities. Food-for-work beneficiaries said that the
food-for-work projects had resulted in soil conservation and improved farming
techniques that increased crops yields. Consequently, they produced more food for their
families and surplus crops for outside sale. (See pages 5–8.)

The report contains four recommendations to assist USAID/Rwanda in strengthening its
management of the P.L. 480 Title II nonemergency direct food aid distribution program.
Specifically, it addresses the need to (1) resolve the discrepancies between the number
of stated and actual beneficiaries and the amount of stated and actual dietary support
1
  USAID uses the word “activity” to describe a set of actions that use resources such as commodities, technical
assistance, and training to achieve specific operational-level results, such as vaccinations given, schools built, loans
issues, and so on. This report uses the word “project” in lieu of “activity.”
2
  The food-for-work project in Rwanda promotes terrace building to help prevent soil erosion and increase crop
production. The terrace builders are farmers who are paid in food commodities for their work.



                                                                                                                      1
provided to beneficiaries, (2) incorporate direct food aid into its performance
management plan, (3) periodically verify cooperating sponsors’ data, and (4) provide
procedures to one cooperating sponsor for resolving outstanding claims. (See pages
10–16.)

In response to the draft report, the mission concurred with all four recommendations. A
management decision has been reached for recommendation nos. 1, 2, and 3. The
mission has already taken final action on recommendation no. 4 and that
recommendation is considered closed upon the issuance of this report (see pages 10,
12, 14, and 16)




                                                                                     2
BACKGROUND
The Agricultural Trade Development and Assistance Act of 1954, also known as Public
Law 480 (P.L. 480), is the primary basis for the Food for Peace Program and the
principal mechanism through which the U.S. Government implements its international
food assistance initiatives. Under Title II of the P.L. 480 program—managed by
USAID—the U.S. Government donates agricultural commodities to support emergency
and nonemergency programs. In some cases, direct relief, emergency feeding, and
disaster assistance programs distribute food to individuals. In other cases, food is
combined with other program elements and targeted to certain beneficiary groups in
maternal-child health, school feeding, and food-for-work programs.           P.L. 480
commodities are also imported and sold on the local market (monetized), providing an
additional supply of food locally and generating local currency, which is then used to
support local development.

Since Rwanda does not produce enough food to feed its population, food must be
imported. The primary causes of food insecurity in Rwanda are high population density,
small land parcels resulting in overcultivation of land, and inefficient agricultural
techniques, with farmers having little or no access to improved technologies. In addition,
climatic variations can result in periods of both drought and flood, with consequent soil
erosion.

USAID/Rwanda’s Title II nonemergency program is implemented through three
cooperating sponsors that participate in direct distribution—Catholic Relief Services,
World Vision, and Agricultural Cooperative Development International and Volunteers in
Overseas Cooperative Assistance (ACDI/VOCA). 3 The mission’s direct food aid
distribution program mitigates food insecurity by promoting development projects that
enhance household nutrition and increase agricultural production through the following
types of projects.

     •    Food for work – Building terraces to prevent soil erosion and increase crop
          production. Workers are paid in commodities.

     •    Direct distribution to vulnerable populations – Distributing commodities to feeding
          centers, known as safety net centers, which provide aid for vulnerable groups
          such as orphans, street children, the disabled, and the elderly.

     •    Direct distribution to HIV/AIDS Associations – Distribution of food commodities to
          people living with HIV/AIDS.

The commodities provided are corn-soy blend, bulgur wheat, and vegetable oil. These
commodities were selected in 2006 after the Government of Rwanda changed its policy
regarding food aid assistance. The Government of Rwanda had concerns about food
aid commodities competing with Rwandan farmers as well as the potential for creating
food dependency. Consequently, the commodities allowed for this program were limited
to those not produced locally. The Government also required that people affected by

3
 ACDI/VOCA is responsible for the Title II monetization projects and has a subgrantee carrying out its direct distribution
program.



                                                                                                                        3
HIV/AIDS be graduated (removed) from commodity assistance after 6 months. As
discussed later in this report, the mission is looking at a mechanism to improve the food
security of food assistance program graduates.

The fiscal year (FY) 2006 Food for Peace budget for Rwanda was $8.8 million, of which
$3.3 million was the estimated cost of direct distribution. In FY 2007, the budgeted
amount was $11.4 million, of which $4.3 million was the estimated cost of direct
distribution.

This audit focused on USAID/Rwanda’s FYs 2006 and 2007 nonemergency direct food
assistance projects and not on the monetization program, which is also found under Title
II.

AUDIT OBJECTIVE
This audit was included in the Office of Inspector General’s FY 2008 annual plan to
answer the following question:

   •   Has USAID/Rwanda’s P.L. 480 Title II nonemergency assistance been delivered
       to the intended beneficiaries, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       4
AUDIT FINDINGS
Has USAID/Rwanda’s P.L. 480 Title II nonemergency assistance
been delivered to the intended beneficiaries, and what has been
the impact?
USAID/Rwanda’s implementation of the P.L. 480 Title II nonemergency assistance has
generally resulted in the delivery of food commodities to intended beneficiaries, including
HIV/AIDS-affected households, vulnerable populations, 4 and persons involved with food-
for-work projects. However, some of the centers feeding vulnerable populations were
also feeding persons who were not intended beneficiaries. As a result, the intended
beneficiaries received fewer program rations than they would have received otherwise.

The audit also determined that USAID/Rwanda’s nonemergency assistance has had a
positive impact on the communities targeted for this assistance. Improved health and
increased agricultural productivity have, in turn, improved food security. These results
are discussed in more detail below.

Food Aid Generally Reached the Intended Beneficiaries

USAID/Rwanda’s P.L. 480 Title II nonemergency assistance provided through direct
feeding or direct commodities distribution for FYs 2006 and 2007 generally reached the
intended beneficiaries. Rations of vegetable oil, bulgur wheat, and corn-soy blend are
provided to each feeding center. The rations are based on the number of beneficiaries
to be fed in accordance with the agreements between the cooperating sponsor and the
feeding centers. The centers use these commodities to prepare nutritious meals for
program beneficiaries. Other beneficiaries, such as farmers’ association members
selected for food-for-work projects and HIV/AIDS association members identified as
most in need of food rations, receive the same commodities to take home for use in
preparing meals.

Although the cooperating sponsors had established strong internal control over transport
and storage of commodities, some food rations at select feeding centers such as
orphanages, schools for the disabled, and centers for street children were used to feed
additional persons who were not intended beneficiaries. As a result, the intended
beneficiaries received fewer program rations than they would have received otherwise.
These feeding centers attempted to mitigate the effects of feeding additional people by
supplementing the USAID-financed commodities with food they grew or obtained from
other donors.

Positive Impact of USAID’s P.L. 480 Food Aid

It is difficult to quantify the overall impact of the P.L. 480 program because
USAID/Rwanda’s cooperating sponsors are primarily collecting and reporting on



4
    Orphans, street children, the elderly, and the disabled.




                                                                                         5
operational results, with less of an emphasis on impact. 5 Despite the lack of such data,
the audit team did note positive trends for the beneficiaries targeted by the mission’s
food aid program, such as improved health, increased agricultural productivity, and
improved food security. 6 Both the mission and its cooperating sponsors said that
although impact indicators to measure the success of the food aid program have been
discussed, identifying appropriate impact indicators is not an easy task.




Photo of people living with HIV/AIDS discussing the benefits they received from USAID
donated commodities. (Photograph taken in Gikongoro in Southern Province, Rwanda, in
October 2007 by a RIG/Pretoria auditor.)

People Living With HIV/AIDS – These beneficiaries are members of HIV/AIDS
associations with which USAID/Rwanda’s cooperating sponsors work to identify
members most in need of food. During the audit, several beneficiaries relayed how food
aid improved their health. These testimonials included the following:

       •    One woman, a widow with five children, weighed 99 pounds upon entering the
            food aid program in January 2006. In September 2007, she graduated from the
            program. She now weighs 211 pounds. Before receiving food aid, she
            described herself as being very desperate and hopeless, with no means to feed
            her family. After regaining her health, she obtained a loan from a microfinance
            institution to start a business buying and reselling sorghum. She noted that the
            food donations have contributed to her well-being more than the antiretroviral
            drugs used to treat HIV/AIDS.



5
  The mission reported that in the case of food-for-work projects, some impact indicators are collected, such as the
average yield of targeted crops, the number of targeted farmers receiving improved seeds, and the number of farmers
trained in the use of improved technologies. For the most part, the reported results for these indicators showed positive
impact.
6
    As reported by USAID/Rwanda staff, cooperating sponsors, and program beneficiaries.



                                                                                                                       6
   •   One man was hospitalized before entering the food aid program in April 2005.
       After receiving food though the nonemergency assistance food program, his
       health improved and his weight increased from 88 pounds to 110 pounds. He
       graduated from the food aid program in October 2005. After graduation from the
       program, his health worsened. He reentered the food aid program in October
       2007, and now weighs 114 pounds.

   •   Another man has been on antiretroviral drugs since April 2004. He was very sick
       and was hospitalized prior to receiving food aid. At the time, he weighed 84
       pounds. He entered the food aid program in April 2005, graduated from the food
       aid program in December 2005, and reentered the program in October 2007,
       when his health worsened. He now weighs 121 pounds, which he attributes to
       the nutrients received from the food distribution program.

Safety Net Centers – These institutions feed vulnerable populations with USAID-
supplied commodities. The cooperating sponsor builds the capacity of safety net
centers by strengthening the centers’ ability to obtain additional resources outside of
USAID. Such support has included providing grants to develop and manage income-
generating projects, and training on grants management and fundraising. As these
safety net centers develop increased self-sufficiency, the intent is to wean them all from
USAID assistance by FY 2009. In FY 2007, eight safety net centers—representing 67
percent of that year’s target of 12 centers—were phased off of USAID assistance.




Photo of children having lunch in an orphanage that is a safety net center. They are eating
USAID-donated commodities. (Photograph taken in Nyanza, Southern Province, Rwanda
in October 2007 by a RIG/Pretoria auditor.)

The following is an example of the positive benefits of the safety net centers:

   •   A nutritionist working at a feeding center for street children said that even though
       she could not quantify the impact of the feeding intervention, she had observed a
       significant improvement in the overall health of street children at the center. She


                                                                                         7
         noted that when children first arrive at the feeding center, their health is typically
         not good. After a few months at the center, their weights increase to normal
         levels and their health improves. She said that this improved health is entirely
         due to the USAID-provided food rations that they receive through the cooperating
         sponsor.

Food-for-Work Projects – USAID/Rwanda’s food-for-work project uses terrace building to
help farmers prevent soil erosion and increase crop production. The terrace builders are
paid in commodities for their work. As part of this project, the farmers also receive
training in the use of improved farming technologies (such as bio-intensive gardening,
which promotes food production techniques that utilize small pieces of land and are not
labor intensive), as well as improved seed varieties and trees to grow on the terraces.
Some of the cited benefits derived from the food-for-work activities were as follows:

    •    Members of a farmers’ association (living on a large hill) from the Nyamgabi
         district of the Southern Province said that soil erosion was a significant problem
         before they built the food-for-work terraces. They indicated that while the
         commodities received for food for work were an incentive, the bigger goal was to
         address soil erosion. Terracing done through food for work prevented water from
         washing away the topsoil. According to association members, terracing and
         improved farming techniques learned from the cooperating sponsor have
         resulted in a doubling of the crop yield. This greater crop yield has allowed
         association members to feed their families and sell surplus crops. Money earned
         from surplus crop sales has allowed the members to pay for school fees and
         books, purchase clothes for their children, and buy household items. Before
         terracing, none of the association members’ children had gone to school because
         their families could not afford to send them. All of the association members’
         children are now attending school, including a nursery school for the
         preschoolers. Association members also said that food for work had brought the
         community closer through helping each other with terrace construction. This
         cooperation helped this community with reconciliation after the genocide. 7

    •    Members of a farmers’ association (living in the drought-prone Mereba sector of
         the Eastern Province) said without food-for-work terracing and its associated
         training, they would not have had enough food to feed their families. As a result
         of the terracing, they have been able to feed their families and sell surplus food.
         Previously, this community had never had surplus crops. The extra income from
         selling surplus crops allowed the association members to purchase farmland,
         plots for homes, materials to construct homes, and livestock. The food-for-work
         program has also been a conduit for the members to address and resolve
         problems. Members also said that it has quickened the peace and reconciliation
         process after the genocide.

USAID/Rwanda is in the process of integrating the needs of its nonemergency food aid
program with the assistance provided under the President’s Emergency Plan for AIDS
Relief. One planned focus is the development of income-generating projects for people
who are living with HIV/AIDS. USAID/Rwanda, one cooperating sponsor, and some
food aid beneficiaries reported that a significant problem posed by the current food aid

7
 In 1994, Rwanda suffered 100 days of violence targeted at the Tutsi and moderate Hutu population. Roughly 800,000
people were killed.



                                                                                                                8
program for people living with HIV/AIDS is that once the recipients are healthy enough to
graduate from the program, their food insecurity typically resumes, because they lack
the outside income to purchase sufficient food or cannot produce enough food
themselves. When their health fails again, they resume receiving program commodities.
The new integrated program plans to address this issue. However, the mission has
indicated that it lacks sufficient staff—including those with the skills to address nutritional
HIV/AIDS issues. Mission officials are concerned that this weakness could undermine
their ability to implement this integrated program. 8

Notwithstanding these accomplishments, USAID/Rwanda could strengthen the oversight
of its nonemergency assistance in several areas: (1) providing food assistance only to
eligible beneficiaries, (2) developing a performance management plan that incorporates
direct food aid, (3) improving data quality, and (4) resolving outstanding financial claims.

Some Beneficiaries Are Outside
Targeted Population
Summary: Contrary to the terms of the agreements between one cooperating sponsor
and its subgrantees, some feeding centers were feeding USAID-provided food rations to
people who did not meet the age requirements in those subagreements. This is, in part,
attributable to a lack of monitoring of feeding centers by both the mission and the
cooperating sponsor. As a result, eligible beneficiaries have received less of the USAID-
provided rations than they would have received otherwise.

Subagreements signed between one USAID/Rwanda cooperating sponsor and its
subgrantees for feeding centers—referred to as safety net centers—outline the number
of individuals to be fed under the food aid assistance program. Food rations are
programmed based on meeting 80 percent of the daily kilocalorie intake of target
populations. If more individuals than the number outlined in those agreements were fed
with P.L. 480 program food rations, individuals in the target populations would not
receive 80 percent of their kilocalorie intake from P.L. 480 rations.

In addition to identifying the number of individuals to be fed, these subagreements
specify a maximum age of 17 for street children, orphans, and the disabled benefiting
from the safety net centers visited by the audit team. 9 Nevertheless, two of the five
centers visited served individuals over the age of 17. At the program’s largest feeding
center, 289 of the 759 identified participants (38 percent) were older than age 17. At
another center, all people who lived in the center were being fed both by USAID-
provided food aid commodities and commodities provided by the Government of
Rwanda. Moreover, food participants at this center included individuals between the
ages of 21 and 49. Two other centers visited also had a higher number of participants
than the numbers specified in their agreements.

As part of its approval of the cooperating sponsor’s implementation plan,
USAID/Washington approved the projects of safety net centers for street children and

8
 USAID/Rwanda also expressed concerns that an upcoming move to the new U.S. Embassy compound would limit its
ability to hire additional staff, since staffing levels cannot increase owing to space limitations.
9
  Some safety net centers are responsible for feeding the elderly. However, none of the safety net centers visited during
this audit were targeted at feeding the elderly.



                                                                                                                            9
orphans. Although USAID did not establish an age limit for the beneficiaries to be
classified as orphans and street children, many of the safety net center participants were
over the age of 21—some were over 30 years of age—clearly violating the terms of the
subagreement between the cooperating sponsor and the safety net center. RIG/Pretoria
believes that it was not the intent of this project to feed orphans and street children over
age 17.

This situation arose, in part, because the cooperating sponsor had not adequately
reviewed and followed up on the monthly reports provided by feeding centers to ensure
that only the intended beneficiaries of the program were receiving food rations and that
the numbers of beneficiaries served was commensurate with the levels stipulated in the
agreements. In addition, neither the mission nor the cooperating sponsor had
adequately monitored the safety net centers to ensure that P.L. 480 food rations were
provided only to the intended beneficiaries as defined in the subagreements.

As a result, the intended beneficiaries at some safety net centers were not receiving the
anticipated 80 percent of their kilocalorie intake from P.L. 480 rations. This audit makes
the following recommendation to address this situation.

   Recommendation No. 1: We recommend that USAID/Rwanda resolve the
   discrepancies between (a) the number of stated beneficiaries and the number of
   actual beneficiaries, and (b) the amount of stated versus actual support in terms
   of percentage of kilocalorie intake from P.L. 480 food rations.

Performance Management Plan
Should Include Direct Food Aid
Summary: Contrary to USAID guidance, the performance management plan for
USAID/Rwanda’s strategic objective no. 7 did not incorporate the mission’s direct food
aid distribution program. According to the mission, direct food aid distribution was not
included in its May 2006 performance management plan because of changes taking
place within USAID at that time, which included both less emphasis on performance
management plans and more emphasis on the new requirements for operational plan
reporting. Yet, on December 1, 2006, an Action Memorandum approved by USAID’s
Administrator reiterated the requirement that USAID’s operating units develop
performance management plans and emphasized the importance of maintaining
comprehensive performance management plan systems.               Without an updated
performance management plan, USAID/Rwanda lacks a critical tool for planning,
managing, and documenting the performance of its food distribution program.

USAID’s Automated Directives System (ADS), section 203.3.3, states that operating
units must complete performance management plans for each strategic objective. A
performance management plan is described as a “tool used by an operating unit and
strategic objective team to plan and manage the process of assessing and reporting
progress towards achieving a strategic objective.”        ADS 203.3.3.1 notes that
performance management plans shall identify the performance indicators that will be
tracked; specify the source, method of collection, and schedule of collection for all
required data; and assign responsibility for collection to a specific office, team, or
individual. Finally, ADS 203.3.4.6 provides for the regular updating of performance
management plans as programs develop and evolve.


                                                                                         10
USAID/Rwanda’s strategic objective no. 7 team, which is responsible for the mission’s
food aid distribution program, developed its current performance management plan in
May 2006. However, this performance management plan does not address how direct
food aid distribution is linked to the intermediate results for this strategic objective. The
performance management plan contains only one relevant indicator—new technologies
adopted. This indicator is derived from food-for-work projects and is found under the
mission’s intermediate result no. 7.1, which addresses expanded adoption of improved
agricultural and business practices.




Photo of hillside terraces built by food-for-work beneficiaries. (Photograph taken in the
Nyamgabi District, Southern Province, Rwanda, in October 2007 by a RIG/Pretoria auditor.)

According to mission officials, USAID/Rwanda recognized the importance of having an
updated performance management plan. One official noted that the mission had not
incorporated direct food aid distribution into the performance management plan for
strategic objective no. 7 because of changes taking place within USAID at that time.
These changes included less importance being given to performance management
plans and increased emphasis being placed on new operational plan reporting and
related indicators. While this audit recognizes that this was indeed a time of flux within
USAID, a December 1, 2006, Action Memorandum approved by USAID’s Administrator
reiterated the requirement to develop performance management plans and the
importance of maintaining comprehensive performance management plan systems.

In commenting on this situation, another mission official noted that until fiscal year 2007,
the mission did not have any control over Food for Peace funding, which had previously
been controlled by USAID/Washington. According to this official, now that the mission
controls these funds, USAID/Rwanda will have control over operational plan reporting,
which will be reflected in a performance management plan that includes food
distribution.



                                                                                          11
Without an updated performance management plan, USAID/Rwanda has lacked a
critical tool for planning, managing, and documenting for the performance of its food
distribution program. Moreover, in the absence of a performance management plan
specifically addressing food aid distribution, the mission does not have sufficient
assurance that it is maintaining controls essential to the operation of a credible and
useful performance-based management system. As a result, RIG/Pretoria is making the
following recommendation to strengthen the mission’s performance management plan:

   Recommendation No. 2: We recommend that USAID/Rwanda incorporate the
   Public Law 480 direct food aid distribution into its performance management
   plan.

The Quality of Some Reported
Data Is Questionable
Summary: ADS 203.3.5 states that performance data should be as complete and
consistent as management needs and resources permit. Nevertheless, some of the
reported accomplishments by USAID/Rwanda’s cooperating sponsors in their Indicator
Performance Tracking Tables did not meet the data quality standards for integrity,
precision, and reliability. Several factors, such as a lack of data validation by
cooperating sponsors, inconsistent monthly reports provided by feeding centers, limited
review of data by mission staff, and staff reductions at the mission have contributed to
these data quality problems. In the absence of a sound system to ensure the reliability
of reported data, it is more difficult for the mission to properly manage the program and
make sound management decisions.

High-quality data are an important element in making sound management decisions.
This is recognized in ADS 203.3.5, which notes that performance data should be as
complete and consistent as management needs and resources permit. Additionally,
according to ADS 203.3.5.1, operating units should ensure that performance data meet
the five data quality standards described below:

   •   Validity: Data should clearly and adequately represent the intended result.

   •   Integrity: Data integrity needs to be protected. Data integrity is at greatest risk of
       being compromised during data collection and analysis.

   •   Precision: Data should be sufficiently precise to present a fair picture of
       performance and enable management decisionmaking at the appropriate levels.

   •   Reliability: Data should reflect stable and consistent data collection processes
       and analysis methods over time. Operating units should be confident that
       progress toward performance targets reflects real changes rather than variations
       in data collection methods.

   •   Timeliness:   Data should be timely enough to influence management
       decisionmaking at the appropriate levels.

A USAID/Rwanda data quality assessment of its operational plan indicators in fiscal year
2007 identified no problems. Nevertheless, this audit determined that there were


                                                                                          12
significant discrepancies between reported accomplishments and those supported by
source documents for several key indicators reported in the cooperating sponsors’
Indicator Performance Tracking Tables. As a result, the integrity, precision, and
reliability standards identified in ADS 203.3.5.1 were not met. The following describes,
by indicator, some of the problems identified in the reported data.

   •   Number of beneficiaries served – For fiscal year 2006, the cooperating sponsor
       calculated 6,861 for the number of beneficiaries by extrapolating them from the
       September 2006 monthly reports submitted from the feeding centers. However,
       3,834 beneficiaries reported by the centers for the month of September did not
       match the source documents provided. In fiscal year 2007, the monthly reports
       prepared by the cooperating sponsor did not capture all the centers receiving
       food aid; they included only the centers that had submitted monthly reports. As a
       result, the quarterly reports and the subsequent annual report did not include all
       the beneficiaries served by all centers.

   •   Number of farmers trained in progressive terracing – For fiscal year 2006, the
       cooperating sponsor reported that 5,734 farmers had been trained in progressive
       terracing. In contrast, two different sources of supporting documentation
       maintained by the cooperating sponsor in its country office showed two different
       totals for this indicator, one amounting to 13,905 and the other to 14,145. At the
       provincial office level, hardcopy records at one provincial office showed 2,053
       trained during this period. However, electronic supporting documentation totaling
       2,356 and 2,116 was found at the cooperating sponsor’s country office for this
       province. Similar problems were encountered for this indicator in fiscal
       year 2007.

   •   Number of farmers trained in preventing soil erosion – For fiscal year 2006, at the
       provincial level, hardcopy records at one provincial office showed 197 farmers
       trained during this period. However, electronic supporting documentation for 137
       farmers was provided at the cooperating sponsor’s country office for this
       province. Similar problems were encountered in testing data for fiscal year 2007
       from two provincial offices for this indicator.

   •   Number of metric tons of food distributed to households living with HIV/AIDS –
       Discrepancies were identified in data reported by one cooperating sponsor
       versus the supporting documentation for one province in fiscal year 2006. That
       province provided supporting documentation for 115.194 metric tons, in contrast
       to the country office’s electronic supporting documentation of 59.405 metric tons.

Data quality problems stemmed from several factors:

   •   Cooperating sponsors did not verify reported data from the feeding centers or
       from their own provincial offices.

   •   Feeding centers did not consistently provide monthly reports to their cooperating
       sponsor for the capture and reporting of data at the aggregate level.

   •   One cooperating sponsor did not have a Monitoring and Evaluation specialist
       until fiscal year 2007. This person had 50 percent of his time allocated to this



                                                                                       13
         program. His responsibilities were limited to setting up a monitoring system and
         did not include conducting field visits to validate data.

     •   Another cooperating sponsor did not verify the reliability of data reported by
         provincial offices. Its review of data was limited to checking for aberrations.

     •   USAID/Rwanda’s review of data reported by its cooperating sponsors was limited
         to checking for aberrations.

     •   USAID/Rwanda staff decreased over time, leaving fewer staff members to
         perform site visits and data validation. 10 According to a mission official who was
         responsible for monitoring about 250 sites—coupled with other responsibilities,
         including the monetization segment of the program—the number of field visits
         that could be performed had dropped to about one-half of the visits performed
         prior to the staff reduction.

Fiscal year 2007 results reports issued in November 2007 by two cooperating sponsors
indicated that the partners were proposing steps to improve the quality of their indicator
data because of such data quality problems. Without an effective system in place to
ensure that cooperating sponsors are carefully collecting data and providing complete
and accurate reports, it is more difficult for USAID/Rwanda to make sound decisions and
to properly manage its P.L. 480 program. As a result, RIG/Pretoria is making the
following recommendation:

     Recommendation No. 3: We recommend that USAID/Rwanda develop and
     implement a plan to periodically verify cooperating sponsors’ data, including the
     verification of data during site visits.




10
  Previously, the mission had a Food for Peace officer on staff. Although site visits were documented, there was no
evidence of data validation being performed during those visits.



                                                                                                               14
Photo of a farmers’ association members’ children who are now attending school. Prior to
participating in USAID/Rwanda’s food-for-work program, the association members were
not able to send any children to school because they could not afford to pay for school
fees. (Photograph taken in the Nyamgabi district, Southern District, Rwanda, in October
2007 by a RIG/Pretoria auditor.)



Outstanding Claims
Should Be Resolved
Summary: Contrary to Title 22 of the Code of Federal Regulations, the mission did not
regularly follow up and resolve outstanding commodity loss claims from one cooperating
sponsor. The cooperating sponsor had previously been unsuccessful in making
payments to the U.S. Government. USAID/Rwanda had been in regular e-mail contact
with USAID/Washington trying to resolve the problem, but since January 2007 had not
followed up on this issue with USAID/Washington. At the completion of this audit, the
mission contacted USAID/Washington and was able to obtain guidance for assisting the
cooperating sponsor on how to remit payments. However, at this time there has been
no remittance for the outstanding claim.

Title 22 of the Code of Federal Regulations, section 211.9 (22CFR§211.9) states,

       If a cooperating sponsor causes loss or damage to a commodity,
       monetized proceeds, or program income through any act or omission or
       failure to provide proper storage, care, and handling, the cooperating
       sponsor shall pay to the United States the value of the commodities,
       monetized proceeds or program income, lost, damaged, or misused,
       unless AID determines that such improper distribution or use, or such loss
       or damage could not have been prevented by proper exercise of the
       cooperating sponsor’s responsibility.




                                                                                     15
A USAID/Rwanda cooperating sponsor has not been able to remit payment of $18,338
in outstanding claims to the U.S. Government. The majority of this amount ($15,118)
dates back to fiscal year 2006 and was the result of the theft of commodities from the
cooperating sponsor’s warehouse. The balance was composed of outstanding claims
from fiscal year 2007.

The cooperating sponsor had unsuccessfully attempted to remit payment to the U.S.
Treasury via the account identified in 22CFR§211.9(g), which addresses the handling of
claims proceeds.      According to December 2006 e-mail correspondence from
USAID/Washington to the mission, private voluntary organizations (PVOs) and field
missions/posts have experienced difficulties remitting payment to the U.S. Treasury.
The e-mail said that there did not appear to be a way to make such payments. The e-
mail also noted the varying opinions within the Agency and PVO community on how
those funds should be used; for instance, returning funds to Washington versus making
them available for programming in the field. USAID/Washington’s December 2006
correspondence stated that it needed additional time to obtain a legal opinion on the
most appropriate action to take in accordance with applicable laws and regulations. The
last correspondence between the mission and USAID/Washington was in January 2007.

Almost 2 years have passed since the majority of the loss was incurred. Because the
outstanding claims due were not remitted to the Treasury, these funds were not
available to be put to better use. On November 13, 2007, the mission queried
USAID/Washington on how to proceed. An official for USAID/Washington’s Food for
Peace Office then provided the mission with a newly adopted Treasury Symbol account
to which payment should be made.

In recognition of the mission’s previous involvement in this issue and in order to facilitate
resolution of this long-outstanding claim, RIG/Pretoria is making the following
recommendation.

   Recommendation No. 4: We recommend that USAID/Rwanda provide its
   cooperating sponsor with the revised procedures for paying outstanding claims
   and request that these claims be paid as soon as possible.




                                                                                          16
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Rwanda concurred with four of the five
recommendations identified to strengthen USAID/Rwanda’s management of the Public
Law 480 (P.L. 480) Title II Nonemergency Direct Food Aid Distribution Program. The
mission’s comments and an evaluation of those comments are summarized below.

Recommendation no. 1 recommends that the mission resolve the discrepancies
between the (1) number of stated beneficiaries and the number of actual beneficiaries
and (2) the amount of stated versus actual support in terms of percentage of kilocalorie
intake for the P.L. 480 food rations. The mission concurs with the recommendation and
suggests that it has resolved the discrepancies between the number of reported and
actual beneficiaries, and their reported and actual caloric intake from PL 480-
supplemented rations. However, there is no evidence to support this statement other
than what has been described in the following paragraph.

The mission noted in its response that by May 1, 2008, it will recommend to USAID’s
Food For Peace cognizant technical officer (CTO) based in Washington, D.C. and
Catholic Relief Services (CRS) to revise its safety net centers’ sub-agreements to
explicitly address beneficiaries to resolve the discrepancy between the Food For Peace
agreements with CRS, and the CRS sub-agreements with the safety net centers.
Furthermore, the mission sent an e-mail to the USAID Food For Peace CTO based in
Washington, D.C. on April 16, 2008, which recommended that the CTO instruct CRS to
revise their safety net centers’ sub-agreements by removing the age limit from the sub-
agreements. It was further explained in that e-mail that the discrepancies identified
during the audit was due to CRS sub-agreements with the safety net centers specifying
a maximum age for beneficiaries, while the USAID agreement with CRS does not
address a maximum age for beneficiaries. Based on the Mission’s response and the e-
mail support detailing the actions requested by the mission, a management decision has
been reached on this recommendation.

Recommendation no. 2 recommended that the mission incorporate direct food aid
distribution into the performance management plan for USAID/Rwanda’s strategic
objective no. 7. The mission noted that it will supplement its performance management
plan with a food aid monitoring plan by July 31, 2008. The food aid monitoring plan will
incorporate selected indicators from Washington’s performance management plan for
their Food for Peace program and the mission’s operating plan. Based on the Mission’s
response, a management decision has been reached on this recommendation.

Recommendation no. 3 recommended that the mission develop and implement a plan to
periodically verify cooperating sponsors’ data, including the verification of data during
site visits. The mission noted that it had amended its Mission Order on site visits to
include a section on documenting verification of data. Further, it will develop and
implement by July 31, 2008, a plan to periodically review data reported by its
cooperating sponsors. Based on the Mission’s response, a management decision has
been reached on this recommendation.



                                                                                      17
Recommendation no. 4 in the draft report recommended that the mission require that its
cooperating sponsors develop and report on impact indicators for its P.L. 480 food aid
distribution program. Despite the fact that during the audit, the mission and its two
cooperating sponsors stated that they had held prior discussions—which included
USAID/Washington—regarding the use of impact indicators to measure the success of
the food aid program, the mission now states in its response that its cooperating
sponsors are already reporting on impact indicators to USAID’s Office of Food for Peace
in Washington, D.C.

In addition, the mission’s response also cites a study that states determining the impact
of food aid on people with HIV/AIDS can be problematic because the effects of the
disease compromise the reliability of traditional measures of impact, such as body mass
index, weight, and skin-fold measurements. However, these comments by the mission
regarding the difficulty of measuring the impact of food aid on people with HIV/AIDS are
not compelling, because the mission’s target population for food aid was far broader
than just people with HIV/AIDS. Nevertheless, in light of the mission’s assertion that its
partners are reporting on impact indicators to USAID/Washington, we have removed this
recommendation from body of the report.

Recommendation no. 5 in the draft report (Recommendation no. 4 in this final report)
recommended that the mission provide its cooperating sponsor with the revised
procedures for paying outstanding claims and request that these claims be paid as soon
as possible. The mission has provided evidence that the cooperating sponsor has now
paid the amount of claim to U.S. Embassy Kigali. Therefore, final action has been taken
on this recommendation upon the issuance of this report.




                                                                                       18
                                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork was conducted from
October 10 to November 9, 2007, in Kigali and various locations in the Southern and
Eastern provinces in Rwanda, which included visits to warehouses and distribution
centers.

The objective of this audit was to determine if USAID/Rwanda’s Public Law (P.L.) 480
Title II nonemergency assistance had been delivered to the intended beneficiaries, and
what had been the impact. In conducting this audit, we assessed the effectiveness of
internal control related to the nonemergency assistance program. We identified
pertinent controls such as (1) the mission’s documentation related to managing and
monitoring the program, (2) the partners’ reporting program status, (3) establishment
and maintenance of site visit information, and (4) the mission’s annual self-assessment
of internal control in accordance with the Federal Managers’ Financial Integrity Act for
fiscal year 2007. In addition, we tested some aspects of internal control that selected
cooperating sponsors had for their food commodities.

The scope of this audit included USAID/Rwanda’s P.L. 480 nonemergency assistance
carried out during fiscal years 2006 and 2007. It did not include projects involving
monetization. In fiscal year 2006, $3.3 million was budgeted and in fiscal year 2007,
$4.3 million was budgeted for direct food distribution.

We interviewed and reviewed documentation for all three cooperating sponsors.
However, the majority of our audit efforts were focused upon the two cooperating
sponsors, which represented 95 percent of direct distribution food commodities for fiscal
year 2006 and 87 percent for fiscal year 2007. 11

Methodology
To answer the audit objective, we reviewed relevant P.L. 480 program documents such
as development assistance program documents, annual estimates of requirements, call
forwards, commodity status and distribution status recipient reports, and commodity loss
and damage or misuse of commodities reports. We also reviewed commodity
transportation records, inventory records, and commodity distribution records in relation
to our review of controls over the receipt, storage, and delivery of food aid. We also
reviewed monitoring reports prepared by the mission and the cooperating sponsors.

During site visits to cooperating sponsors’ main country offices and field offices, we
reviewed the documents, records, and forms the cooperating sponsors used to maintain
accountability over program commodities as they move from port to warehouse to
distribution center and finally to the beneficiary. We also tested the data quality found in
annual results reports and observed program operations. We tested data that were

11
   The third cooperating sponsor was involved with monetization projects. This sponsor had a subgrantee that was
responsible for carrying out food aid projects.



                                                                                                            19
                                                                          APPENDIX I


selected in concert with the mission and cooperating sponsors by comparing the
reported data to supporting documentation. In addition, we interviewed responsible
mission and cooperating sponsor staff.

We also met with food aid beneficiaries to determine how they had benefited from the
commodities received. These beneficiaries included (1) recipients who had worked on
food-for-work terracing projects, (2) vulnerable populations including orphans and the
disabled, and (3) members of HIV/AIDS associations. When available, we reviewed
data that were being collected on these beneficiaries, which in part included such
individual data as weight and body-mass indices.

The nature of this audit did not lend itself to materiality thresholds; thus, none were
developed. Instead, auditor judgment was used to answer the audit objective.




                                                                                    20
                                                                                 APPENDIX II



   MANAGEMENT COMMENTS




           U.S AGENCY FOR INTERNATIONAL DEVELOPMENT
                        U.S.A.I.D MISSION TO RWANDA
                        _______________________________
UNITED STATES ADDRESS:                            INTERNATIONAL POSTAL ADDRESS:
USAID/RWANDA                                                    B.P:2848.KIGALI, RWANDA
DEPARTMENT OF STATE                                                      TEL: (250) 596 800
2210 KIGALI PLACE                                                        FAX: (250) 596 442
WASHINGTON, D.C. 20521                                             E-mail: Kigali@usaid.gov




   MEMORANDUM

   TO:              Regional Inspector General/Pretoria, Nathan S. Lokos
   FROM:            USAID/Rwanda Mission Director Dennis Weller /s/
   RE:              Draft Report on Audit of USAID/Rwanda’s Distribution of P.L.
                    480 Title II Nonemergency Assistance in Support of Its Direct
                    Food Aid Distribution Program (Report No. 4-696-08-XXX-P)
   April 16, 2008


   This memorandum transmits USAID/Rwanda’s response to the Draft Report on Audit of
   USAID/Rwanda’s Distribution of P.L. 480 Title II Nonemergency Assistance in Support
   of Its Direct Food Aid Distribution Program (Report No. 4-696-08-XXX-P).

   The amended Draft Report includes five recommendations. The attached response
   includes specific actions responding to each of the recommendations (or a report of
   actions already completed) incorporating clarifications provided during recent
   communications between RIG and the Mission. In addition to the Mission’s response to
   the draft audit findings, please also find attached a copy of an action already performed to


                                                                                              21
                                                                                APPENDIX II


resolve recommendation #1 regarding the discrepancies found under the agreement with
Catholic Relief Services.

We appreciate the courtesy and professionalism the audit team showed during its visit,
and look forward to a continuing fruitful relationship.

We request that our response be included in its entirety in the final report of the audit.




US Agency for International Development
2657 Avenue de la Gendarmerie             Tel. (250) 596800
KACYIRU                                   Fax. (250) 596442
RWANDA                                    www.usaid-rwanda.rw




                                                                                             22
                                                                                        APPENDIX II


                             USAID/Rwanda
                               Response to
“Audit of USAID/Rwanda’s Distribution of P.L. 480 Title II Nonemergency
   Assistance in Support of Its Direct Food Aid Distribution Program”
                  (Audit Report No. 4-696-08-XXX-P)”

USAID/Rwanda appreciates the time and effort that the Regional Inspector General
(RIG) staff devoted to its review of work under Title II of PL 480, and in its preparation
of its “Audit of USAID/Rwanda’s Distribution of P.L. 480 Title II Nonemergency
Assistance in Support of Its Direct Food Aid Distribution Program (Report No. 4-696-08-
XXX-P)” (RIG Draft). We are pleased that the audit team recognizes that “The positive
impact of the food aid program has included improved health and increased agricultural
productivity, which has improved overall food security for the populations targeted for
this assistance”. 12

We concur in the findings that “USAID/Rwanda’s implementation of the P.L. 480 Title II
nonemergency assistance has generally resulted in the delivery of food commodities to
intended beneficiaries” and that the program “has positively impacted the communities
which have been targeted for this assistance through improved health and increased
agricultural productivity.” 13 USAID/Rwanda strives for continually improved
performance, and we appreciate RIG’s “recommendations to assist USAID/Rwanda in
strengthening its management of the P.L. 480 Title II nonemergency direct food aid
distribution program.” 14 Nonetheless, we believe that it would be useful to expand RIG’s
description of the situation and discuss some of the RIG conclusions.

RIG’s five recommendations are to: (1) resolve discrepancies between stated and actual
number of beneficiaries and percentage of calories provided by PL 480 rations” 15 , (2)
“incorporate the Public Law 480 direct food aid distribution into [USAID/Rwanda’s]
performance management plan” 16 , (3) “develop and implement a plan to periodically
verify cooperating sponsors’ data, including the verification of data during site visits” 17 ,
(4) “require that [USAID/Rwanda’s] cooperating sponsors develop and report on impact
indicators for its Public Law 480 food aid distribution program” 18 and (5)
USAID/Rwanda provide its cooperating sponsor with the revised procedures for paying
outstanding claims and request that these claims be paid as soon as possible.” 19




12
   Audit of USAID/Rwanda’s Distribution of P.L. 480 Title II Nonemergency Assistance in Support of Its
Direct Food Aid Distribution Program (Report No. 4-696-08-XXX-P) (RIG Draft), p. 1
13
   RIG Draft, p. 5
14
   RIG Draft, p. 1
15
   RIG Draft, p. 10
16
   RIG Draft, p. 12
17
   RIG Draft, p. 13
18
   RIG Draft, p. 16
19
   RIG Draft, p. 17


                                                                                                    23
                                                                                         APPENDIX II


Recommendation No. 1. We recommend that USAID/Rwanda resolve the
discrepancies between (1) the number of stated beneficiaries and the number of
actual beneficiaries, and (2) the amount of stated versus actual support in terms of
percentage of kilo-calorie intake from PL 480 food rations. 20

We agree that any discrepancies between actual and reported beneficiary count should be
resolved, as should difference between actual and reported caloric intake by beneficiaries.
The discussion preceding Recommendation No. 1, though, provides no facts to support a
determination of actual discrepancies. USAID/Rwanda will continue to monitor the
situation and work with USAID/W and its cooperating sponsors to resolve any
discrepancies.

The RIG Draft discussion to support Recommendation No. 1 begins by saying that
“Agreements signed between one USAID/Rwanda cooperating sponsor and its
subgrantees for feeding centers—referred to as safety net centers—outline the number of
individuals to be fed under the food aid assistance program.” 21 Catholic Relief Services
(CRS) is the only PL 480 cooperating sponsor that supports Safety Net Centers (SNCs) in
Rwanda. This response will focus on CRS support for Safety Net Centers.

The RIG Draft section related to Recommendation No. 1 does not accurately reflect
either the function of the SNCs or the purpose of support for cooperating sponsors. The
RIG Draft closes a series of findings with “Finally, two other centers visited also had a
higher number of participants than the numbers specified in their agreements.” 22 These
findings appear to be based on sub-agreements between CRS and SNCs; some of these
sub-agreements are unclear and, in some cases, incongruent with the USAID/CRS
Agreement. The major discrepancy is that only children under 18 years are explicitly
included as eligible in these sub-agreements.

It is from this discrepancy that the RIG Draft analysis concludes in its summary
preceding Recommendation No. 1: “Contrary to the terms of the agreements between
one cooperating sponsor and its subgrantees, some feeding centers were feeding people
who do not meet the age requirements in those agreements.” 23 The CRS program
description, incorporated into the award, describes the caloric intake for various age
ranges to be fed at SNCs 24 :

       The following table shows the portion of the daily recommended caloric intake for
       individuals provided by the daily ration, which constitutes between 73-137% depending
       on the age of the individual.

            Beneficiary as Prime   Daily Energy Needs   Approximate Provision Provided
            0-4 yrs                1290                 137% k/cal needs


20
   RIG Draft, p. 12
21
   RIG Draft, p. 9
22
   RIG Draft, p. 10
23
   RIG Draft, p. 9
24
   CRS DAP Amendment - Comprehensive Close-Out Strategy Amendment (COSA), p. 16



                                                                                                 24
                                                                                    APPENDIX II


             10-14 yrs               2210                80% k/cal needs
             15-19 yrs               2420                73% k/cal needs
             60+ yrs                 1890                93% k/cal needs
             Whole Population        2100                85% k/cal needs

The PL 480 award to CRS explicitly includes the program description. 25 The program
description explicitly addresses intentions to provide food for beneficiaries of all ages,
including an age range of 60+ years.

The CRS proposal includes plans to assist a number of vulnerable populations, of all
ages, through several mechanisms. SNCs are among the devices used to reach these
vulnerable groups. “SNCs provide refuge for the most vulnerable, especially street and
unaccompanied children, which make up the bulk of the population among SNCs,
followed by the handicapped and elderly.” 26 The RIG Draft recognizes that “USAID did
not establish an age limit for the beneficiaries,”27 but seems to conclude that the only
intended beneficiaries are orphans and street children. That conclusion leads the authors
to “believe that it was not the intent of this project to feed orphans and street children
over age 17.” 28 That belief, though, is irrelevant to analysis of the CRS agreement, and
might mislead an uninformed reader to conclude that adults were not intended
beneficiaries under the CRS award.

There is no basis whatever for the RIG Draft assertion that “neither the mission nor the
cooperating sponsor had adequately monitored the safety net centers to ensure that P.L.
480 food rations were only provided to the intended beneficiaries.” 29 All the
beneficiaries described in the RIG Draft are clearly within the vulnerable populations
identified as intended beneficiaries of the CRS award.

The final RIG Draft conclusion before Recommendation No. 1 confirms the
misunderstanding that Title II food was seen by RIG as the sole sustenance for those
people at the safety net centers. The assertion that “As a result, the intended beneficiaries
of this food aid at some safety net centers were not receiving the anticipated 80 percent of
their kilo-calorie intake from P.L. 480 rations” 30 distorts the intent of the CRS award. An
incorrect assumption was that food “from P.L. 480 rations” was to be provided in
isolation from other food, apparently with the presumption that beneficiaries would be
better served by a diet consisting only of Corn Soy Blend, Bulgur Wheat, and Vegetable
Oil, the PL 480 commodities available in Rwanda 31 . At face value, this proposition is
incongruous with USAID’s core tenet to leverage other resources when possible to
advance programmatic, and in this case, nutritional objectives.



25
   Modification of Cooperative Agreement FFP-A-00-00-00086-10, effective 11 November 2006
26
   CRS DAP Amendment - Comprehensive Close-Out Strategy Amendment (COSA), p. 6
27
   RIG Draft, p. 10
28
   RIG Draft, p. 10
29
   RIG Draft, p. 10
30
   RIG Draft, p. 10
31
   CRS DAP Amendment - Comprehensive Close-Out Strategy Amendment (COSA), p. 16


                                                                                             25
                                                                                       APPENDIX II


CRS undertook to provide from 73% to 137% of the minimum caloric needs of a range of
vulnerable populations. The SNCs, under sub-agreements, agreed to provide a specific
minimum daily ration to a minimum number of children at each SNC. The SNC sub-
agreements, in an administrative oversight, do not address beneficiaries beyond the
minimum number of children. There is nothing in the SNC sub-agreements, though, to
forbid additional beneficiaries, and the CRS agreement explicitly contemplates these
other beneficiaries. PL 480 commodities were to be a part of the food provided, allowing
the SNCs to provide a more nutritious mixed diet. In the event, as the RIG Draft
recognizes, the SNCs supplemented PL 480 corn-soy blend, bulgur wheat, and vegetable
oil with other commodities provided through other funding. The RIG audit team was
provided with documentation showing that PL 480 commodities were just over half of
the food provided, with supplemental food providing upwards of 45% of the total. The
supplements included beans, meats, milk, vegetables, sweet potatoes, potatoes, banana,
small fish, rice, maize flour, cassava flour, and fruits, depending on the availability of
commodities on the market near each center. The result was a more nutritious mixed diet
for the beneficiaries. CRS and the SNCs are to be commended for marshalling other
resources and providing an improved diet to additional beneficiaries.

USAID/Rwanda concurs with the recommendation that discrepancies be resolved.
USAID/Rwanda has reviewed the situation described for Recommendation No. 1, and
has resolved the suggested discrepancies between the number of reported and actual
beneficiaries, and their reported and actual caloric intake from PL 480-supplemented
rations. USAID/Rwanda will by May 1, 2008 recommend to the FFP Washington CTO
and CRS that CRS revise its SNC sub-agreements to explicitly address beneficiaries
beyond the minimum number of children. The recommended revision will resolve the
discrepancy between the FFP agreement with CRS and the CRS sub-agreements with the
SNCs.

Recommendation No. 2: We recommend that USAID/Rwanda incorporate the
Public Law 480 direct food aid distribution into its performance management
plan. 32

The Food for Peace (FFP) program is sufficiently complex that some confusion about
monitoring, reporting and management responsibilities is understandable. FFP
cooperating sponsors in Rwanda conduct activities under agreements with
USAID/Washington’s FFP office. 33, 34, 35 The CTO for each of these agreements is with
FFP Washington. “FFP Washington has its own Performance Management Plan (PMP)
designed to measure progress on the Office’s 2006-2010 Strategic Plan.” 36 FFP
Washington requires cooperating sponsors to provide information to support the
Washington PMP. “A new set of indicators was developed to track the progress of this

32
   RIG Draft, p. 13
33
   Catholic Relief Services: Modification of Cooperative Agreement FFP-A-00-00-00086-10, effective 11
November 2006
34
   World Vision: Transfer Authorization Award No.: FFP-A-00-04-00084-00, effective October 1, 2004
35
   ACDI/VOCA: Transfer Authorization Award No.: FFP-A-00-04-00073-00, effective October 1, 2004
36
   Food for Peace Information Bulletin (FFPIB) 07-01, p. 2


                                                                                                    26
                                                                              APPENDIX II


strategy. Accordingly, some changes have been made in reporting requirements
applicable to Title II programs.” 37

The RIG Draft correctly states the ADS 203.3.3 requirement that the Mission maintain a
complete PMP. 38 The RIG Draft, though, misstates the requirements of a complete PMP,
and concludes that the Mission does not have adequate information to play its role in
managing the program. The RIG Draft states, that “Contrary to USAID guidance, the
performance management plan for USAID/Rwanda’s strategic objective no. 7 did not
incorporate the mission’s direct food aid distribution program.” 39 The RIG Draft cites no
guidance or actual requirements that would require the Mission PMP to have explicit
indicators for the PL 480 program. The authority cited by the RIG Draft, a 2006
memorandum, reaffirmed existing Agency requirements to have a complete PMP. 40
ADS 203.3.3 sets out the requirements for a PMP, and USAID/Rwanda fulfills these
requirements. USAID/Rwanda has a complete PMP.

The RIG Draft notes that “ADS 203.3.4.6 provides for the regular updating of
performance management plans as programs develop and evolve.” 41 This provision,
though, clearly addresses updating information for existing indicators, not adding
indicators. “Operating Units should update PMPs regularly with new performance
information as programs develop and evolve.” 42 The immediately following section
advises that indicators can be added “for a compelling reason.” 43 To reinforce this, the
Agency requires that “significant” changes in indicators require approval by
USAID/Washington. 44

There is no Agency guidance that requires PMP revision for new activities; there is
guidance to add indicators only for a “compelling reason,” and “significant” changes
require Washington approval. It is clear that USAID guidance does not require, and in
fact discourages, PMP revision with the addition or modification of activities.

USAID recognizes that performance is multi-dimensional, and that performance
management requires more than reference to PMP indicators; “that performance
indicators merely ‘indicate’ how a program is performing and do not necessarily tell the
full story.” 45 The Agency also recognizes that effective management requires
minimizing reporting and administrative burdens. “More information is not necessarily
better because it markedly increases the management burden and cost to collect and
analyze. Operating Units should also align their performance information needs with



37
   Food for Peace Information Bulletin (FFPIB) 07-02, p. 1
38
   RIG Draft, p. 10
39
   RIG Draft, p. 10
40
   RIG Draft, p. 10
41
   RIG Draft, p. 11
42
   ADS 203.3.4.6
43
   ADS 203.3.4.7
44
   ADS 203.3.4.7
45
   ADS 203.3.4.2


                                                                                            27
                                                                              APPENDIX II


those of their partners, thereby lessening the reporting burden for partner
organizations.” 46

FFP/Washington has the direct relationship with the cooperating sponsors, has its own
PMP, and specifies the cooperating sponsors’ PMP requirements in its agreement.
USAID/Rwanda has access to the cooperating sponsors’ reports to FFP/Washington, and
uses that information. The RIG Draft recognizes the PL 480 program in Rwanda has
been effective in achieving the program’s purposes. 47 Nonetheless the RIG Draft
proposes that USAID/Rwanda expand its PMP—without sufficient justification in our
opinion—and impose additional reporting requirements on the cooperating sponsors.

USAID/Rwanda has reviewed its Performance Management Plan, the cooperating
sponsor reports to FFP/Washington, and the FFP/Washington PMP, and has verified that
PL 480 indicators for direct food distribution are available to appropriately integrate PL
480 activities with Mission strategy. USAID/Rwanda will supplement its PMP with a PL
480 monitoring plan that incorporates selected indicators from the FFP Washington PMP
and from the USAID/Rwanda Operating Plan. USAID/Rwanda will have the
supplemental monitoring plan in place by July 31, 2008, to coincide with preparation for
Mission Operating Plan reporting.

Recommendation No. 3: We recommend that USAID/Rwanda develop and
implement a plan to periodically verify cooperating sponsors’ data, including the
verification of data during site visits. 48

As the RIG Draft notes, ADS 203.3.5 provides that “performance data should be as
complete and consistent as management needs and resources permit.” 49 This statement
follows the ADS recognition that “There is always a trade-off between the cost and the
quality of data,” 50 and the admonition that “Operating Units should balance these two
factors to ensure that the data used are of sufficiently high quality to support the
appropriate level of management decisions.” 51

In its review of data quality, the RIG Draft identifies minor discrepancies in individual
detail items reported to FFP Washington, but does not address the aggregate reported in
the FFP Washington PMP. The discrepancies identified in the RIG Draft include
numbers of farmers trained in terracing in one record as 14,145 and in another 13,905, 52 a
difference of 1.7%. In another example, the RIG Draft cites records of the number of
farmers trained in soil erosion as either 1,097 or 1,083, a difference of 1.3%. Other
examples include the possible under-reporting of the number of beneficiaries or the
amount of food distributed. 53

46
   ADS 203.3.2.1.d
47
   RIG Draft, pp. 5-6
48
   RIG Draft, p. 13
49
   ADS 203.3.5, RIG Draft, p. 13
50
   ADS 203.3.5
51
   ADS 203.3.5
52
   RIG Draft, p. 13
53
   RIG Draft, p. 13-14


                                                                                         28
                                                                                       APPENDIX II



USAID/Rwanda appreciates the concern shown by the RIG audit team for improved
documentation of the quality of data provided by implementing partners.
USAID/Rwanda has amended its Mission Order on site visits to include a section to
document verification of data and will develop and implement, by July 31, 2008, a plan
to periodically review data reported by PL 480 cooperating sponsors.

Recommendation No. 4: We recommend that USAID/Rwanda require that its
cooperating sponsors develop and report on impact indicators for its Public Law
480 food aid distribution program. 54

The Food for Peace (FFP) program is sufficiently complex that some confusion about
monitoring, reporting and management responsibilities is understandable. FFP
cooperating sponsors in Rwanda conduct activities under agreements with
USAID/Washington’s FFP office. 55, 56, 57 The CTO for each of these agreements is with
FFP Washington. “FFP Washington has its own Performance Management Plan (PMP)
designed to measure progress on the Office’s 2006-2010 Strategic Plan.” 58 FFP
Washington requires cooperating sponsors to provide information to support the
Washington PMP. “A new set of indicators was developed to track the progress of this
strategy. Accordingly, some changes have been made in reporting requirements
applicable to Title II programs.” 59 The FFP PMP explicitly includes impact indicators. 60

USAID/Rwanda has reviewed the cooperating sponsors’ reports to FFP Washington and
the FFP PMP, and verified that the cooperating sponsors have developed and are
reporting on impact indicators for the PL 480 program in Rwanda. Indicators of clinical
impact of food aid on HIV/AIDS-related beneficiaries remain to be developed or verified.
A recent study concluded that “there is a dearth of evidence, both in the literature and in
the field, showing the impact of food aid on these HIV/AIDS related beneficiary
groups.” 61 After reviewing the data available on such measures as body mass index,
mid-upper arm circumference, weight, and skin-fold measurements, the authors
concluded that “HIV/AIDS brings additional problems in interpretation of
anthropometric measurements that compromise the value of these traditional measures as
indicators of the impact of TFA programs.” 62 With the current state of knowledge, it is
not possible to collect anthropometric impact data that is sufficiently accurate and
meaningful to be included in formal USG reporting.


54
   RIG Draft, p. 16
55
   Catholic Relief Services: Modification of Cooperative Agreement FFP-A-00-00-00086-10, effective 11
November 2006
56
   World Vision: Transfer Authorization Award No.: FFP-A-00-04-00084-00, effective October 1, 2004
57
   ACDI/VOCA: Transfer Authorization Award No.: FFP-A-00-04-00073-00, effective October 1, 2004
58
   Food for Peace Information Bulletin (FFPIB) 07-01, p. 2
59
   Food for Peace Information Bulletin (FFPIB) 07-02, p. 1
60
   FFPIB 07-02, p. 2
61
   Measuring the Impact of Targeted Food Assistance on HIV/AIDS-Related Beneficiary Groups, Kari
Egge and Susan Strassner, C-SAFE Learning Spaces Initiative, November 2005 (Egge and Strassner), p.5.
62
   Egge and Strassner, p. 11.


                                                                                                   29
                                                                               APPENDIX II


Recommendation No. 5: We recommend that USAID/Rwanda provide its
cooperating sponsor with the revised procedures for paying outstanding claims and
request that these claims be paid as soon as possible. 63

The RIG Draft claims that USAID/Rwanda failed in an obligation to require a
cooperating partner to pay for missing commodities. In the Mission’s view, this claim is
based on a misinterpretation of the cited regulation. The statement in the RIG Draft, that
“Contrary to Title 22 of the Code of Federal Regulations, the Mission did not regularly
follow up and resolve outstanding commodity loss claims from one cooperating
sponsor”, 64 is incorrect in both the assertion that the Mission has an obligation to pursue
the matter, and the finding that USAID/Rwanda was anything short of diligent in its
actions.

The cooperating sponsor has an agreement with USAID/W, not with USAID/Rwanda. It
is therefore, in the Mission’s opinion, more appropriate to recommend USAID/W and not
USAID/Rwanda describe to its cooperating sponsor procedures required by USAID/W.
USAID/Rwanda remains willing to provide USAID/W’s cooperating sponsors operating
in Rwanda with appropriate information. USAID/Rwanda, as discussed below, will
continue to review this matter with USAID/W and its cooperating sponsor.

The procedures by which cooperating sponsors pay outstanding claims is straightforward,
as are the obligations. The cooperating partner is to pay USAID/Washington, which is to
accept payment. USAID field missions have no role in the process. The procedure set
out in 22 CFR 211.9 is simple and unambiguous:

         (d) … if a cooperating sponsor causes loss or damage to a commodity…, the
         cooperating sponsor shall pay to the United States the value of the
         commodities…. Payment by the cooperating sponsor shall be made in accordance
         with paragraph (g) of this section, except that the USAID or Diplomatic Post may
         agree to permit a cooperating sponsor to replace commodities lost, damaged, or
         misused with similar commodities of equal value.
         ….
         (g) … With respect to commodities, claims against nongovernmental cooperating
         sponsors shall be paid to CCC or AID/W …. 65

In describing the context of the recommendation, the RIG Draft states that “according to
USAID/Washington, both private voluntary organizations and USAID field missions
have experienced difficulty remitting such payments to the U.S. Treasury using the
account number specified in 22 CFR 211.9.” 66 This statement, ostensibly repeated from
an unnamed person at “USAID/Washington”, appears incorrect; there is no "account
number specified in 22 CFR 211.9” for the payment at issue.


63
   RIG Draft, p. 17
64
   RIG Draft, p. 16
65
   22 CFR 211.9
66
   RIG Draft, p. 17


                                                                                          30
                                                                              APPENDIX II


There is an account specified in 22 CFR 211.9 for payments relating to loss to be paid by
ocean carriers, or for loss to be paid by foreign government cooperating sponsors and
third parties:

           (g) … With respect to commodities, claims against nongovernmental cooperating
           sponsors shall be paid to CCC or AID/W in U.S. dollars; amounts paid by other
           cooperating sponsors and third parties in the country of distribution shall be
           deposited with the U.S. Disbursing Officer, American Embassy, preferably in U.S.
           dollars with instructions to credit the deposit to CCC Account No. 12X4336, or in
           local currency with instructions to credit the deposit to Treasury sales account
           20FT401. 67

USAID/Rwanda consulted with USAID/Washington and advised the cooperating sponsor
of its obligation to pay. The cooperating sponsor promptly offered to pay as required.
USAID/Washington requested that the cooperating sponsor delay payment until
USAID/Washington developed a more convenient (for USAID/W) procedure for
handling the payment. USAID/Rwanda relayed that request to the cooperating partner.

To supplement these communications with USAID/W and the cooperating sponsor,
USAID/Rwanda has discussed possible means of payment with US Embassy Kigali.
USAID/Rwanda has no capacity to modify USAID/W procedures. As of the date of the
RIG Draft and this response, there was and is no “revised procedure” that
USAID/Rwanda could provide to the cooperating sponsor. Resolution may be payment
to USAID/W as discussed to date, or replacement of the commodities “with similar
commodities of equal value” 68 , as permitted by 22 CFR 211.9. USAID/Rwanda advised
the cooperating sponsor of the payment mechanisms specified in 22 CFR 211.9 and
requested that payment be made as soon as possible. The cooperating sponsor has paid
the amount of the claim to US Embassy Kigali, which is holding the funds pending
determination of an appropriate US Government accounting procedure.




67
     22 CFR 211.9 (emphasis supplied)
68
     22 CFR 211.9(d)


                                                                                         31
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
